                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-01670-269




    Combined Assessment Program

           Review of the

        Jack C. Montgomery

         VA Medical Center

        Muskogee, Oklahoma





August 7, 2013

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations

                    Telephone: 1-800-488-8244

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK



                                              Glossary
                 CAP            Combined Assessment Program
                 CHF            congestive heart failure
                 CLC            community living center
                 COC            coordination of care
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Jack C. Montgomery VA Medical Center
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                    CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK



                                            Table of Contents

                                                                                                                           Page

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections............................................................. 7

  COC – HPC ............................................................................................................ 8

  Pressure Ulcer Prevention and Management ......................................................... 10

  Nurse Staffing ......................................................................................................... 12


Appendixes
  A. Facility Profile ....................................................................................................      13

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures......                                                14

  C. VISN Director Comments ..................................................................................                  15

  D. Facility Director Comments ...............................................................................                 16

  E. OIG Contact and Staff Acknowledgments .........................................................                            21

  F. Report Distribution .............................................................................................          22

  G. Endnotes ...........................................................................................................       23





VA OIG Office of Healthcare Inspections
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 10, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following two activities:

   Quality Management

   Environment of Care

The facility’s reported accomplishment was congestive heart failure systems redesign.

Recommendations: We made recommendations in the following four activities:
Medication Management – Controlled Substances Inspections: Ensure that VA Police
conduct annual physical security surveys of all pharmacy areas and that any identified
deficiencies are corrected.

Coordination of Care – Hospice and Palliative Care: Include an administrative support
person and a dedicated psychologist or other mental health professional on the
Palliative Care Consult Team. Ensure that all hospice and palliative care staff and other
clinical staff who provide care to patients at the end of their lives receive
end-of-life training.

Pressure Ulcer Prevention and Management: Revise the facility pressure ulcer policy to
address prevention for outpatients. Ensure acute care staff accurately document
location, stage, risk scale score, and date pressure ulcer was acquired for all patients
with pressure ulcers.        Provide and document recommended pressure ulcer
interventions. Ensure all patients discharged with pressure ulcers have wound care
follow-up plans. Provide and document pressure ulcer education for patients at risk for
and with pressure ulcers and/or their caregivers.

Nurse Staffing: Monitor the staffing methodology that                  was   implemented in
December 2012.




VA OIG Office of Healthcare Inspections                                                        i
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 15–20, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                         JOHN D. DAIGH, JR., M.D.

                                                        Assistant Inspector General for

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK



                              Objectives and Scope

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   COC – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
June 13, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Jack C. Montgomery VA Medical Center, Muskogee, Oklahoma,
Report No. 09-00732-124, May 12, 2009).

During this review, we presented crime awareness briefings for 496 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and




VA OIG Office of Healthcare Inspections                                                       1
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
342 responded. We shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment

CHF Systems Redesign
A systems redesign team participated in the VISN 16 Transitional Care Collaborative to
reduce CHF readmissions by providing education to CHF patients, ensuring patients are
well informed, and improving COC. The team created a CHF Self-Management
Handbook to educate patients on the disease, medications, diet, and exercise.
Patient Aligned Care Teams used “teach-back” education with patients/caregivers to
ensure their understanding of the disease, prognosis, and self-care requirements. The
facility implemented 2-day post-discharge follow-up phone calls to assess
post-discharge needs and piloted weekly follow-up assessment calls for 5 consecutive
weeks post discharge. Case management performed a high-risk needs assessment
and an education gap analysis on each readmitted patient to determine the reason for
readmission. The team assessed the CHF readmission rates and assigned patients
readmitted within 30 days of discharge to the discharging provider/team. The facility
completed the implementation of the redesign in September 2012. As a result, the
facility’s number of CHF 30-day readmissions for the 1st and 2nd quarters of FY 2013
was 8 patients, down from 32 patients in FY 2011.




VA OIG Office of Healthcare Inspections                                                       2
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK



                          Results and Recommendations

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                   Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.



VA OIG Office of Healthcare Inspections                                                                 3
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


 NC             Areas Reviewed (continued)                                   Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
 NA    CLC minimum data set forms were transmitted
       to the data center with the required frequency.
 NA    Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 4
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected five inpatient units (medical/surgical, HPC, MH, rehabilitation, and intensive care),
one outpatient clinic, the emergency department, and SPS. Additionally, we reviewed relevant
documents, conversed with key employees and managers, and reviewed eight SPS employee
training and competency files. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

 NC           Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on bloodborne
       pathogens.




VA OIG Office of Healthcare Inspections                                                                 5
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


 NC          Areas Reviewed for Hemodialysis                                 Findings
                          (continued)
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
NA     The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
 NA    Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                 6
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and 10 CS inspectors and inspection documentation from
9 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The table
below shows the areas reviewed for this topic. The area marked as NC needed improvement.
Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
 X     VA police conducted annual physical security       Annual physical security surveys of the
       surveys of the pharmacy/pharmacies, and             pharmacy areas were not conducted.
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that VA Police conduct annual
physical security surveys of the pharmacy areas and that any identified deficiencies be
corrected.




VA OIG Office of Healthcare Inspections                                                                 7
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


COC – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    An administrative support person had not
                                                            been dedicated to the PCCT.
                                                          A psychologist or other MH professional had
                                                            not been dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had           There was no evidence that four HPC staff
       end-of-life training.                               had end-of-life training.
                                                          There was no evidence that nine non-HPC
                                                           staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
NA     The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.


VA OIG Office of Healthcare Inspections                                                                  8
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


NC             Areas Reviewed (continued)                                    Findings
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommended that processes be strengthened to ensure that the PCCT includes an
administrative support person and a dedicated psychologist or other MH professional.

3. We recommended that processes be strengthened to ensure that all HPC staff and other
clinical staff who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                 9
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 25 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
5 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    The facility had a pressure ulcer prevention      Facility pressure ulcer prevention policy
       policy, and it addressed prevention for all       reviewed:
       inpatient areas and for outpatient care.           The policy did not address prevention for
                                                            outpatients.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                 In 12 of the 25 EHRs, staff did not
       documenting location, stage, risk scale score,      consistently document the location, stage, risk
       and date acquired.                                  scale score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
 X     For patients at risk for and with pressure         Eight of the 25 EHRs did not contain
       ulcers, interprofessional treatment plans were      evidence that the recommended interventions
       developed, interventions were recommended,          were provided.
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed     Eight of the applicable 20 EHRs did not
       at discharge, a wound care follow-up plan was       contain evidence of wound care follow-up
       documented, and the patient was provided            plans at discharge.
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                 10
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


 NC            Areas Reviewed (continued)                                     Findings
  X    The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         For 16 of the patients at risk for/with a
       development was provided to those at risk for       pressure ulcer, EHRs did not contain
       and with pressure ulcers and/or their               evidence that education was provided.
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

4. We recommended that the facility pressure ulcer policy be revised to address prevention for
outpatients and that compliance with the revised policy be monitored.

5. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer was acquired for
all patients with pressure ulcers and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that acute care staff provide
and document recommended pressure ulcer interventions and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  11
                                      CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).6

We reviewed relevant documents and conversed with key employees. The table below shows
the areas reviewed for this topic. The area marked as NC needed improvement. Any items that
did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
  X    The facility completed the required steps to       The staffing methodology was not
       develop a nurse staffing methodology by the         implemented until December 6, 2012.
       deadline.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

9. We recommended that nursing managers monitor the staffing methodology that was
implemented in December 2012.




VA OIG Office of Healthcare Inspections                                                                12
                                  CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK
                                                                                           Appendix A


     Facility Profile (Muskogee/623) FY 2013 through May 2013a
Type of Organization                                                        Secondary
Complexity Level                                                            2-Medium complexity
Affiliated/Non-Affiliated                                                   Affiliated
Total Medical Care Budget in Millions                                       $214.5
Number (through June 2013) of:
    Unique Patients                                                        33,986
    Outpatient Visits                                                      305,488
    Unique Employeesb                                                      1,292
Type and Number of Operating Beds:
    Hospital                                                               99
    CLC                                                                    NA
    MH                                                                     14
Average Daily Census:
    Hospital                                                               58
    CLC                                                                    NA
    MH                                                                     10.8
Number of Community Based Outpatient Clinics                                3
Location(s)/Station Number(s)                                               Tulsa/623BY
                                                                            Hartshorne/623GA
                                                                            Vinita/623GB
VISN Number                                                                 16




a
    All data is for FY 2013 through May 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                            13
                               CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK
                                                                                        Appendix B


                           VHA Patient Satisfaction Survey

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                      Inpatient Scores                              Outpatient Scores
                          FY 2012                                       FY 2012
                Inpatient        Inpatient       Outpatient      Outpatient        Outpatient       Outpatient
                Score            Score           Score           Score             Score            Score
                Quarters 1–2     Quarters 3–4    Quarter 1       Quarter 2         Quarter 3        Quarter 4
    Facility    71.8             69.0            52.1            55.1              50.4             54.7
    VISN        64.1             64.3            52.3            50.9              50.6             50.8
    VHA         63.9             65.0            55.0            54.7              54.3             55.0


                        Hospital Outcome of Care Measures

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                       Readmission
               Heart Attack     Heart           Pneumonia       Heart Attack      Heart            Pneumonia
                                Failure                                           Failure
    Facility   14.6             10.3            13.8            19.2              28.3            25.1
    U.S.
    National   15.5             11.6            12.0            19.7              24.7            18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                          14
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK
                                                                                     Appendix C
                              VISN Director Comments



                Department of
                Veterans Affairs                                 Memorandum


       Date:	          July 18, 2013

       From:	          Director, South Central VA Health Care Network (10N16)

       Subject:	       CAP Review of the Jack C. Montgomery VA Medical
                       Center, Muskogee, OK

       To:	            Director, San Diego Office of Healthcare Inspections (54SD)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1.	 The South Central VA Health Care Network (VISN 16) has reviewed
           and concurs with the findings and the responses submitted by the
           Jack C. Montgomery VA Medical Center, Muskogee, OK.

       2.	 If you have questions regarding the information submitted, please
           contact Reba T. Moore, VISN 16 Accreditation Specialist, at
           601-206-7022.




VA OIG Office of Healthcare Inspections                                                      15
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:           July 12, 2013

       From:           Director, Jack C. Montgomery VA Medical Center (623/00)

       Subject:        CAP Review of the Jack C. Montgomery VA Medical
                       Center, Muskogee, OK

       To:             Director, South Central VA Health Care Network (10N16)

       1.	 We have reviewed and concur with the preliminary report of the
           Combined Assessment Program review of the Jack C. Montgomery
           VAMC.    We have developed an action plan and have begun
           implementing our plan.

       2.	 If there are any questions or concerns please contact Martha Hardesty
           RN, Performance Improvement Specialist at 918-577-3473.




VA OIG Office of Healthcare Inspections                                                      16
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
VA Police conduct annual physical security surveys of the pharmacy areas and that any
identified deficiencies be corrected.

Concur

Target date for completion: July 11, 2013

Facility response: Two detectives have physical security duties in their Position
Description and these officers have been to Physical Security training at the Law
Enforcement Training Center in Little Rock Arkansas. They are responsible for creating
the schedule of security checks and informing the Chief of Police and Associate Director
in writing when the physical security checks will be completed. They are also
responsible for notifying the Chief of Police and the Associate Director in writing of any
findings associated with the physical security audits. Physical security survey was
completed on the pharmacy on May 31, 2013.

Recommendation 2. We recommended that processes be strengthened to ensure that
the PCCT includes an administrative support person and a dedicated psychologist or
other MH professional.

Concur

Target date for completion: August 31, 2013

Facility response: A psychologist has been identified to work with the PCCT at
0.5 FTEE. This will be placed into her functional statement. An administrative support
person has been identified to assist with the PCCT at 0.25 FTEE. Effective date for
both roles is August 31, 2013.

Recommendation 3. We recommended that processes be strengthened to ensure that
all HPC staff and other clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: July 31, 2013

Facility response: Education service reports 100% of the PCCT has had end-of-life
training in Talent Management System (TMS) (module # VA16188). Training for all


VA OIG Office of Healthcare Inspections                                                      17
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


inpatient nursing is being accomplished via the Hospice Education Network through the
End-of-Life Nursing Education Consortium (ELNEC). Approximately 50% of assigned
nurses have received this training and the rest have a completion deadline of
July 31, 2013. Education Service has set up the PCCT and all assigned nurses to take
the TMS module on End-of-Life Training yearly. TMS prompts the student and
supervisor annually and places the module on the student’s mandatory education list.

Recommendation 4. We recommended that the facility pressure ulcer policy be
revised to address prevention for outpatients and that compliance with the revised
policy be monitored.

Concur

Target date for completion: October 31, 2013

Facility response: Patient Care Services Standard Operating Procedure (SOP) 118-8,
Prevention and Management of Pressure Ulcers, will be changed to a Medical Center
Memorandum (MCM) and will include prevention for outpatients. This MCM will be
distributed to all Primary Care staff. Compliance monitoring will be done by Nurse
Managers via a monthly audit of outpatient visits at all CBOC’s and parent facility for
90 days.

Recommendation 5. We recommended that processes be strengthened to ensure that
acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer was acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: October 31, 2013

Facility response: Nursing Service will implement a 5-point plan which includes
computer documentation prompts, staff education and coaching, ready references, and
visual cues at computer stations. Monitoring will be completed through monthly Medical
Record Review audits of 5 records for each acute care setting per month for 90 days.
The medical record review audit form has been revised to include pressure ulcer
documentation. The medical records audit data is reported to the Medical Records
Committee and Executive Committee of the Medical Staff quarterly.

Recommendation 6. We recommended that processes be strengthened to ensure that
acute care staff provide and document recommended pressure ulcer interventions and
that compliance be monitored.

Concur

Target date for completion: October 31, 2013




VA OIG Office of Healthcare Inspections                                                      18
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


Facility response: The Nursing reassessment template is designed where interventions
are documented every shift. There is also a separate Pressure Ulcer Plan of Care
template that describes interventions that are carried out by the nursing staff. Staff will
be educated by Nurse Managers on documentation of interventions and compliance.
Monitoring will be completed through Monthly Medical Records Review. Each inpatient
acute care setting will complete 5 record audits per month for 90 days. The medical
record review audit form has been revised to include pressure ulcer documentation.
The medical records audit data is reported to the Medical Records Committee and
Executive Committee of the Medical Staff quarterly.

Recommendation 7. We recommended that processes be strengthened to ensure that
all patients discharged with pressure ulcers have wound care follow-up plans and that
compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response: The wound care follow-up plan of care will be added to the providers
Discharge Instructions template so the provider may choose the type of follow-up for the
patient. These instructions are sent home with the patient or care giver in hard copy
which the nurse reviews with the patient before discharge. Monitoring will be completed
through Monthly Medical Records Review. Each inpatient acute care setting will
complete 5 record audits per month for 90 days. The medical record review audit form
has been revised to include pressure ulcer documentation. The medical records audit
data is reported to the Medical Records Committee and Executive Committee of the
Medical Staff quarterly.

Recommendation 8. We recommended that processes be strengthened to ensure that
acute care staff provide and document pressure ulcer education for patients at risk for
and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response: Nursing staff documents pressure ulcer education to
patients/caregivers every 12 hours in their Nursing Reassessment Template. The
facility developed a Multidisciplinary Education Template in 2010. Nurse Managers and
Education Service will again provide staff education to all inpatient staff on use of this
template. The Clinical Applications Coordinators will place a list of wound care
interventions into the Provider Discharge Instructions template. The providers then will
be able to choose which of these interventions should be done by the patient/care giver
at home. Monitoring will be completed through Monthly Medical Records Review. Each
inpatient acute care setting will complete 5 record audits per month for 90 days.




VA OIG Office of Healthcare Inspections                                                      19
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK


Recommendation 9. We recommended that nursing managers monitor the staffing
methodology that was implemented in December 2012.

Concur

Target date for completion: July 10, 2013

Facility response: Staffing Methodology is now a standing agenda item on the Unit
Based Counsel staff meeting held monthly. Staffing Methodology will be placed on the
Nurse Manager agenda as a standing agenda item. The Facility has completed the
2013 Staffing Methodology at the Unit Based Level and is now presenting at the Facility
Expert Panel Level. All staffs participating in the 2013 Staffing Methodology at the Unit
Based Level and Expert Facility Level have completed the TMS Educational Modules.
Staffing is discussed and reviewed daily by all Nurse Managers to ensure that staffing is
adequate throughout the acute care settings on the inpatient units to comply with
Nursing Hours per Patient Day (NHPPD). This includes the Charge Nurses, Assistant
Nurse Managers, Nursing Officers of the Day (NOD), and Nurse Managers assisting on
the units when necessary to meet the requirements for safe patient care. A Staffing
Methodology report is presented in the Quality Management Council on a monthly
basis. The facility is in compliance with all other additional elements required by VHA or
local policy in concordance with the Staffing Methodology Data process for 2013.




VA OIG Office of Healthcare Inspections                                                      20
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Josephine Biley Andrion, RN, MHA, Team Leader
Contributors            Elizabeth Burns, MSSW
                        Francis Keslof, EMT, MHA
                        Sandra Khan, RN, BSN
                        Judy Montano, MS
                        Glen Pickens, RN, MHSM
                        Julie Watrous, RN, MS
                        James Werner
                        Katrina Young, RN, MSHL
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH, MBA
                        Deborah Howard, RN, MSN
                        Derrick Hudson
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      21
                            CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Jack C. Montgomery VA Medical Center (623/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tom Coburn, James M. Inhofe
U.S. House of Representatives: Jim Bridenstine, Markwayne Mullin


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      22
                               CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK
                                                                                        Appendix G

                                               Endnotes

1
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009.

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation

   Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010.
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       23
                                   CAP Review of the Jack C. Montgomery VA Medical Center, Muskogee, OK



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                 24
